No:
IN THE
SUPREME COURT OF THE UNITED STATES

CARLOS MIGUEL PEREZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I certify that on this 29th day of October, 2020, in accordance with SUP. CT. R.
29, copies of the (1) Petition for Writ of Certiorari, (2) Motion for Leave to Proceed In
Forma Pauperis, (3) Certificate of Service, and (4) Declaration Verifying Timely
Filing, were served by third party commercial carrier for delivery within three days
upon the United States Attorney for the Southern District of Florida, 99 N.E. 4th
Street, Miami, Florida 33132-2111, and upon the Solicitor General of the United
States, Room 5614, Department of Justice, 950 Pennsylvania Avenue, N.W.,
Washington, D.C. 20530-0001.
MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER
Fort Lauderdale, Florida
October 29, 2020

By:___Margaret Foldes________________
Margaret Foldes
Assistant Federal Public Defender
1 East Broward Blvd. Suite 1100
Fort Lauderdale, Florida 33301-1100
Telephone No. (954) 356-7436

